In the Supreme Court of the United States
No. 20-909

IQBAL S. RANDHAWA,
Petitioner,
v.

BANK OF NEW YORK MELLON, FKA
Bank of New York, Successor to JPMorgan Chase Bank, NA,
as trustee, on behalf of the holders of the
Structured Asset Mortgage Investment II Inc.,
Bear Stearns Alt-A, Mortgage Pass-Through
Certificates, Series 2004-12,

Respondent.
CERTIFICATE OF SERVICE

COMES NOW, Jon D. Pels, Attorney for the Petitioner in the above-
captioned matter, and hereby respectfully certify that three true and correct copies
of the attached Petition for Rehearing have been forwarded by First Class Mail to:

BUCHALTER, P.C.
Attn: Douglas C. Straus
Tiffany F. Ng
55 Second Street, Suite 1700
San Francisco, CA 94105-3493
Attorneys for Respondent

Executed on March 23, 2021

 

THE PEL LAW FIRM

4845 Rugpy Avenue, 3d Floor
Bethesda, Maryland 20814
(301) 986-5570
jpels@pelslaw.com

Attorneys for Petitioner
Iqbal Randhawa
